<html>
<title> - THE FOUNDATION OF CLIMATE SCIENCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   THE FOUNDATION OF CLIMATE SCIENCE

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

                           Serial No. 111-17


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-590                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                      Michael Goo, Staff Director
                       Sarah Butler, Chief Clerk
                 Bart Forsyth, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                  Pages
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Jackie Speier, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. John Sullivan, a Representative in Congress from the State 
  of California, prepared statement..............................     8

                               WITNESSES

Dr. James Hurrell, Senior Scientist, National Center for 
  Atmospheric Research...........................................     9
    Prepared Statement...........................................    11
    Answers to Submitted Questions...............................   112
Dr. James McCarthy, Professor of Biological Oceanography, Harvard 
  University.....................................................    31
    Prepared Statement...........................................    34
    Answers to Submitted Questions...............................   126
Lord Christopher Monckton, Chief Policy Adviser, Science and 
  Public Policy Institute........................................    56
    Prepared Statement...........................................    58
    Supplement to Testimony, PowerPoint Slides...................    62
    Answers to Submitted Questions...............................   134
Dr. Chris Field, Director, Department of Global Ecology, Carnegie 
  Institution of Washington......................................    66
    Prepared Statement...........................................    68
Dr. Lisa Graumlich, Director, School of Natural Resources and the 
  Environment, University of Arizona.............................    78
    Prepared Statement...........................................    80

                           SUBMITTED MATERIAL

Hon. John Shadegg, a Representative in Congress from the State of 
  Arizona, the email exchanges of the University of East Anglia 
  climate scientists, entitled ``Climategate Emails.''...........    85


                   THE FOUNDATION OF CLIMATE SCIENCE

                              ----------                              


                         THURSDAY, MAY 6, 2010

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:40 a.m., in room 
2237, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Cleaver, Speier, Sensenbrenner, Shadegg, and Sullivan.
    Staff present: Ana Unruh Cohen and Jonah Steinbuck
    The Chairman. Good morning.
    Welcome to the Select Committee on Energy Independence and 
Global Warming. All eyes are focused on the economic and 
environmental disaster unfolding in the Gulf of Mexico. The BP 
oil spill is causing an immediate human and ecological tragedy. 
The spill is yet another dramatic example of why we must find 
alternatives to oil.
    The American people are desperate for safe, clean energy 
alternatives, solutions that add jobs, end our oil addiction 
and heed the warnings of climate scientists who have called for 
pollution reductions. Eleven people tragically lost their lives 
in the BP rig explosion, and for the past week, an estimated 
5,000 barrels of oil a day have been leaking into the ocean. As 
a result, the Gulf Coast fishing, seafood and tourism 
industries are bracing for the worst. Wildlife refuges and 
marine sanctuaries remain in harms way.
    Congress will keep a vigilant eye on BP's efforts to stop 
the leak and clean up this environmental mess. However, the 
visible oil is not the only carbon pollution we have to worry 
about. Once gasoline is burned in our cars and trucks, carbon 
dioxide is released into the atmosphere. We can see the oil 
slick in the Gulf from space, but it is the buildup of 
invisible carbon dioxide in our atmosphere that is preventing 
heat from escaping back into space.
    Even as carbon dioxide's concentration in the atmosphere 
has been accumulating, so has our scientific understanding of 
its effects and impacts. Based on over 150 years of scientific 
research, a clear picture has emerged of rising temperatures, 
increased droughts, severe rain storms and an acidifying ocean.
    Those who deny global warming point to past uncertainties 
that have been refuted. They ignore the overwhelming 
observational evidence that the increased levels of heat-
trapping pollution are already warming the planet. Instead of 
trying to understand the science, they use stolen e-mails about 
analysis of tree rings in Siberia to turn an honest discussion 
into a Russian tree ring circus. Or they manufacture a cooling 
trend by cherry-picking a few years out of a longer record of 
warming temperatures.
    While the deniers hope to confuse the public, the real-
world consequences of inaction mount. Over the weekend, killer 
storms blew through Tennessee, Mississippi and Kentucky. In 
Nashville, nearly 13 inches of rain fell in just over 2 day's 
time, almost doubling the previous record that fell in the 
aftermath of a hurricane in 1979. These storms follow the 
wettest March on record in Boston. Two 50-year storms occurred 
within two weeks of each other. The National Guard was 
mobilized. Hundreds of people were evacuated from their homes. 
The region suffered millions of dollars in damages.
    No single rain storm can be attributed to climate change, 
nor can a snowstorm disprove its existence. But the underlying 
science and the observed trends do point to more extreme 
weather events, especially heavy precipitation events because a 
warmer atmosphere can hold more moisture. Extreme rainfall is 
just one of the consequences of the carbon pollution we are 
releasing into the air.
    Our witnesses today will explain how science has revealed 
this unseen pollution for what it is and discuss the very real 
consequences of its continuing accumulation in the atmosphere. 
As we approach summer, our clean energy debate needs to 
acknowledge what many would like to deny: Our dependence on oil 
carries with it national security, economic and environmental 
risks. As gas prices rise and the oil slick spreads, perhaps we 
will finally acknowledge that we cannot drill our way to energy 
independence. We have 2 percent of proven oil reserves in the 
world.
    Perhaps we can also acknowledge the basic facts that have 
been known for decades, increasing carbon pollution in the 
atmosphere is warming the planet, and that the only way to put 
a halt to such warming is to move to a clean energy solution.
    I would now like to turn and recognize the ranking member 
of the committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T2590A.001
    
    [GRAPHIC] [TIFF OMITTED] T2590A.002
    
    Mr. Sensenbrenner. I thank the Chairman.
    When global warming alarmists tried to advance their agenda 
a decade ago, they pointed to a damning graph in the 2001 IPCC 
report that showed a sharp rise in temperatures over the past 
century. This graph is commonly known as the hockey stick, and 
it did a good job of scaring a lot of people, especially 
politicians. But the authors of the Hockey Stick may not have 
done a good job with their math. At least that is what a couple 
of enterprising researchers thought. And in double-checking the 
hockey stick data, Stephen McIntyre and Ross McKitrick showed 
that it wasn't as solid as previously thought.
    Lately, a lot of people have been taking a second look at 
the so-called settled science of climate change. Data collected 
by NASA may not be reliable as once believed. And the 
Climategate scandal shows, at best, that some researchers did 
everything they could to prevent review of their work, and at 
worst, they outright sought to manipulate data.
    The debate on the accuracy of climate science is good for 
science. Proclamations that the science is settled are just 
politics. The shortfalls in the scientific record could have 
expensive consequences. Proponents of expensive regulatory 
reform must understand that they need more than political 
victories.
    The EPA's burdensome regulatory regime must be based on 
sound scientific foundation. The EPA's regulations will be 
predicated in large part on the IPCC's most recent report. So 
far, the list of errors in that report includes: One, a 
sloppily sourced claim that Himalayan glaciers would disappear 
by 2035; two, reliance on an unpublished study to claim the 
world has suffered rising costs due to catastrophic weather 
events, where the author later said there was insufficient 
evidence to support the claim; three, stating that 55 percent 
of the Netherlands is below sea level when, in fact, only 26 
percent is; four, failing to support the claim that Africa's 
agricultural output would be produced by 50 percent by 2020; 
and five, an unsupported claim that Bangladesh will be 17 
percent under water by 2050.
    A citizen's audit of the IPCC study found that 5,587 cited 
references, nearly a third of all the sources, were not peer-
reviewed publications, but rather gray literature, such as 
press releases, newspaper and magazine articles, discussion 
papers, master's and Ph.D. theses, working papers and advocacy 
literature published by environmental groups. These sources 
lack authoritative scientific rigor and are more often than not 
intended as propaganda.
    This week, the InterAcademy Council said that it had picked 
the 12 member committee to conduct an independent review of the 
IPCC's procedures. Hopefully the review will result in new 
methodologies that will give the public more confidence in the 
panel's conclusions before it releases its fifth assessment in 
2014.
    The Climategate scandal brought serious questions about the 
reliability of data compiled by the Climatic Research Unit at 
the University of East Anglia. These e-mails showed a clear 
bias, a systematic suppression of dissenting opinion, 
intimidation of journal editors and journals that would publish 
articles questioning the so-called consensus, manipulation of 
data and models, and possible criminal activity to evade 
legitimate requests for data and underlying computer holds 
filed under freedom of information acts. One of these e-mailers 
called Steven McIntyre a bozo for trying to hold him 
accountable for his work.
    Dr. McIntyre also reviewed NASA's temperature data sets. 
His work resulted in forcing NASA to change its history of U.S. 
temperature data to show that 1934, not 1998, was the hottest 
year on record. Another study shows that NASA may have cherry-
picked weather stations to favor those that would produce 
higher temperatures that produce a record that is warmer than 
truthful. Internal e-mails also showed that at least one senior 
NASA scientist raised questions about the accuracy of that 
agency's temperature data set.
    The IPCC report relies heavily on the CRU and NASA data to 
support its conclusions. And the questions raised about these 
data sets raise even more questions about the accuracy of the 
IPCC's study. A report issued today by the Select Committee 
Republican staff shows that the EPA is violating its own rules 
by relying so heavily on the IPCC report. Both the EPA and the 
Office of Management and Budget guidelines state that an agency 
must base any regulatory proposal on science that is clear and 
transparent. OMB guidelines further state that simply because a 
study is peer-reviewed doesn't mean that it fulfills the 
requirement that the results are transparent and replicable.
    I want to welcome here today Lord Christopher Monckton, the 
Chief Policy Advisor of the Science and Public Policy 
Institute. By helping to check and double-check the scientific 
literature, Lord Monckton is helping to improve the state of 
climate science.
    And I look forward to hearing both his perspective and the 
perspective of the other witnesses today.
    Thank you.
    The Chairman. We thank the gentleman.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Mr. Chairman, I will just reserve my time 
for the inquiry. As inviting as my good friend's--from 
Wisconsin--comments were, I would rather save it.
    The Chairman. Okay. The gentleman will reserve his time.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. I will reserve as well. Thank you, Mr. Chair.
    The Chairman. The gentleman's time is reserved.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Out of guilt, I will 
reserve as well.
    The Chairman. The Chair recognizes the gentlelady from 
California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    I am not going to reserve.
    I am glad we are holding this hearing on the science of 
climate change. I welcome our scientific witnesses here today, 
and I look forward to relying on their expertise as we address 
the increasingly dire and challenging impacts of global 
warming.
    I am from the San Francisco Bay area, where our most 
recognizable icon is the Golden Gate Bridge. A little known 
fact, however, is just next to the bridge is our Nation's 
oldest tidal gauge, a 150 year-old station that has given us 
the longest continuous tide record in the Western Hemisphere. 
The gauge shows an increased sea level rise of 8 inches over 
the past century. And the rate of that sea level rise has 
increased and is expected to accelerate further. In fact, the 
area is referred to as ground zero for sea level rise. San 
Francisco airport and surrounding communities could be under 
water by the end of the century.
    We in the Bay Area live on the edge. We know the 
seriousness of this problem for our ecosystem, our 
infrastructure and our coastal and shoreline communities. In 
light of these most basic observations of our changing planet, 
acting on global warming in the here and now is just plain 
common sense.
    That said, the complexity of how we act on these changes 
demands our utmost attention. The sharp, tried and tested 
knowledge of our top scientists must be the foundation for our 
efforts to solve the climate crisis. I am pleased we have some 
very qualified individuals here.
    And once again, I expect to learn much more from their 
testimony. I yield back.
    The Chairman. Thank you.
    The gentlelady's time has expired.
    And all time for opening statements by the members has been 
completed.
    [The prepared statement of Mr. Sullivan follows:]
    [GRAPHIC] [TIFF OMITTED] T2590A.003
    
  STATEMENT OF JAMES W. HURRELL, PH.D., SENIOR SCIENTIST AND 
 CHIEF SCIENTIST, COMMUNITY CLIMATE PROJECTS, CLIMATE & GLOBAL 
 DYNAMICS DIVISION, NATIONAL CENTER FOR ATMOSPHERIC RESEARCH; 
   JAMES J. McCARTHY, PH.D., ALEXANDER AGASSIZ PROFESSOR OF 
 BIOLOGICAL OCEANOGRAPHY, HARVARD UNIVERSITY; LORD CHRISTOPHER 
 MONCKTON, THIRD VISCOUNT MONCKTON OF BRENCHLEY, CHIEF POLICY 
 ADVISER, SCIENCE AND PUBLIC POLICY INSTITUTE; CHRISTOPHER B. 
FIELD, PH.D., DIRECTOR, DEPARTMENT OF GLOBAL ECOLOGY, CARNEGIE 
INSTITUTION FOR SCIENCE, C-CHAIR, WORKING GROUP II OF THE IPCC; 
AND LISA J. GRAUMLICH, PH.D., PROFESSOR AND DIRECTOR, SCHOOL OF 
   NATURAL RESOURCES AND THE ENVIRONMENT, THE UNIVERSITY OF 
                            ARIZONA

    The Chairman. We will now turn to our first witness this 
morning. He is Dr. Jim Hurrell. Mr. Hurrell is a senior 
scientist within the Climate Analysis Section of the National 
Center for Atmospheric Research.
    His research focuses on climate variability and human-
caused climate change. He has contributed to the 
Intergovernmental Panel on Climate Change, the IPCC 
assessments. He is also actively involved in the International 
Research Program on Climate Variability and Predictability. Dr. 
Hurrell holds advanced degrees in atmospheric science from 
Purdue University. He is a fellow of the American 
Meteorological Society.
    We look forward to hearing your testimony, Dr. Hurrell. 
Whenever you are ready, please begin.

              STATEMENT OF JAMES W. HURRELL, PH.D.

    Mr. Hurrell. Thank you.
    Mr. Chairman, Ranking Member Sensenbrenner, and other 
members of the Select Committee, I thank you for the 
opportunity to speak today on observed and likely future 
changes in climate and the contribution from human activity to 
those changes.
    Although uncertainties exist, significant advances in the 
scientific understanding of climate change now make it clear 
that there has been a change in climate that goes beyond the 
range of natural variability, and this change is almost 
certainly due to human activities. This conclusion is drawn 
from multiple lines of evidence published in thousands of 
thoroughly reviewed scientific studies by many different 
investigators and independently assessed by many groups, 
including the U.S. National Academy of Science.
    The fact is that the globe is warming dramatically, and 
this change is already affecting both physical and biological 
systems. Global surface temperatures today are almost 1.5 
degrees Fahrenheit warmer than at the beginning of the 21st 
century, and the rates of temperature rise are greatest in 
recent decades: 14 of the last 15 years are the warmest 
globally since 1850. And the last decade is .4 degrees 
Fahrenheit warmer than the 1990s. There is a very high degree 
of confidence in these numbers. Urban heat island effects, for 
instance, are real but very local, and they have been accounted 
for in the analysis.
    There is no urban heat effect over the oceans where warming 
has also been very pronounced at both the surface and at depth. 
Moreover, warming ocean waters expand and thus contribute to 
sea level rise. Observed and accelerating melting of glaciers, 
icecaps, and ice sheets are also contributing by adding water 
to the ocean. Instrumental measurements of sea level indicate 
that the global average has increased over the last century and 
the rate of sea level rise is increasing. Global sea level rise 
is probably the single best metric of accumulative global 
warming since it integrates the reactions from several 
different components of the climate system and is accurately 
observed from satellite instruments.
    Changes in global temperature or sea level do not imply 
however that changes are uniform around the globe. Regional 
differences arise from natural variability, and these effects 
can be large from year to year or even decade to decade. For 
instance, a historically large El Nino event helped make 1998 
one of if not the warmest year on record, while strong El Nino 
conditions contributed to relatively cooler worldwide 
conditions in 2008. Simply connecting these two data points in 
time, as was shown in the graph, has been done by some to 
misleadingly argue global warming has ceased, ignoring the fact 
that the longer-term temperature trend is clearly upward, and 
the years since 2000 have remained among the warmest on record.
    Because of such natural variations in the climate system, 
climate scientists expect occasional but temporary slowdowns in 
the rate of warming, even while greenhouse gas concentrations 
continue to increase. Climate models also predict such a 
behavior, and today's best climate models are able to reproduce 
many of the observed changes in climate observed over the past 
century.
    Climate models are not perfect. Uncertainties arise from 
shortcomings in our understanding of climate processes and how 
to best represent them in models. Yet the best climate models 
are extremely useful tools for understanding and determining 
the factors that are driving the observed warming.
    And the results are clear, the surface warming of recent 
decades, along with many other changes in climate, is mainly a 
response to increased concentrations of greenhouse gases in the 
atmosphere, which now far exceed pre-Industrial values.
    In summary, the scientific understanding of climate change 
is sufficiently clear to show that climate change from global 
warming is already upon us. Many impacts are evident, and they 
will grow larger with time.
    Uncertainties do remain, especially regarding how climate 
will change at regional and local scales. But the climate is 
changing, and the rate of changes projected exceeds anything 
seen in nature in the past 10,000 years.
    Thank you again for this opportunity to address the 
committee, and I look forward to answering any questions.
    [The statement of Mr. Hurrell follows:]

    [GRAPHIC] [TIFF OMITTED] T2590A.004
    
    [GRAPHIC] [TIFF OMITTED] T2590A.005
    
    [GRAPHIC] [TIFF OMITTED] T2590A.006
    
    [GRAPHIC] [TIFF OMITTED] T2590A.007
    
    [GRAPHIC] [TIFF OMITTED] T2590A.008
    
    [GRAPHIC] [TIFF OMITTED] T2590A.009
    
    [GRAPHIC] [TIFF OMITTED] T2590A.010
    
    [GRAPHIC] [TIFF OMITTED] T2590A.011
    
    [GRAPHIC] [TIFF OMITTED] T2590A.012
    
    [GRAPHIC] [TIFF OMITTED] T2590A.013
    
    [GRAPHIC] [TIFF OMITTED] T2590A.014
    
    [GRAPHIC] [TIFF OMITTED] T2590A.015
    
    [GRAPHIC] [TIFF OMITTED] T2590A.016
    
    [GRAPHIC] [TIFF OMITTED] T2590A.017
    
    [GRAPHIC] [TIFF OMITTED] T2590A.018
    
    [GRAPHIC] [TIFF OMITTED] T2590A.019
    
    [GRAPHIC] [TIFF OMITTED] T2590A.020
    
    [GRAPHIC] [TIFF OMITTED] T2590A.021
    
    [GRAPHIC] [TIFF OMITTED] T2590A.022
    
    [GRAPHIC] [TIFF OMITTED] T2590A.023
    
    The Chairman. Thank you, Doctor, very much.
    Our second witness today is Dr. James McCarthy. Dr. 
McCarthy is a professor of biological oceanography at Harvard 
University. He served as co-chair of the Impacts, Adaptation, 
and Vulnerability Portion of the IPCC report published in 2001. 
He was also one of the lead authors on the Arctic Climate 
Impact Assessment. Dr. McCarthy received his Ph.D. from Scripps 
Institution of Oceanography. He is a former president of the 
American Association for the Advancement of Science, a fellow 
of the American Academy of Arts and Sciences, and a foreign 
member of the Royal Swedish Academy of Sciences.
    We welcome you, Dr. McCarthy. Whenever you feel ready, 
please begin.

             STATEMENT OF JAMES J. McCARTHY, PH.D.

    Mr. McCarthy. Thank you.
    Good morning, Chairman Markey, Ranking Member 
Sensenbrenner, and other members of the committee.
    You asked us to address four questions.
    The Chairman. Could you move that microphone in just a 
little closer, please?
    Okay, thank you.
    Mr. McCarthy. You asked that we address four questions. And 
I have done this in my testimony, and so I will very briefly 
run through my responses to those questions.
    You asked that we talk about observations. How do we know 
that the climate is changing? What evidence do we have for 
attribution of these changes? And what are some of the 
anticipated impacts? And then, finally, you asked how climate 
scientists should be furthering the understanding of climate 
change?
    So, I am an oceanographer. I have worked on all the oceans 
in my career. Ocean temperatures are changing in a way that 
could not have been imagined when I began my career as an 
oceanographer. I distinctly remember a day in 1986 when someone 
walked into my office and showed me the first graph suggesting 
ocean temperatures were changing.
    Now people ask, how confident are we of these changes? If 
we look at the first slide, and these are the four graphics 
from my testimony, this shows the array of sensing instruments 
that are employed in the ocean today. This is a snapshot from 
last month. There are over 3,000 buoys that have sensing 
devices that profile, move up and down in the upper ocean to 
depths of 6,000 feet, and they report their data by satellite 
to shore stations. So this is how we are tracking today the 
changes in ocean temperature, and are very confident that they 
are responding to the climate system.
    We know now that more than 90 percent of the heat that has 
been trapped in the atmosphere by the accumulated greenhouse 
gases is being stored in the ocean. The oceans are an intricate 
part of the climate system.
    Now I would like to say something about sea level rise, 
which has already been introduced by my colleague. In 2001, 
when the IPCC report was put to bed, it was estimated that sea 
level rise over the present century would be relatively modest, 
perhaps as small as 12 to 24 inches. But it was also not known 
how rapidly ice in Greenland and ice in the Antarctic could 
contribute to sea level rise. If you thought of a block of ice 
sitting on the counter and imagined turning up the temperature 
of the room, you would imagine it would melt faster; that would 
be true. But what we didn't understand is how it could become 
unstable and begin to lose ice to the ocean, and once in the 
ocean, the ocean is warmer than the ice, it would melt even 
more rapidly.
    So if we look at estimates of sea level rise today, first, 
if you look at the next graph, you can see, if you go back to 
1990, which is where the three dotted lines begin to span off 
to the right, these were the projections in 1990 of sea level 
rise for the IPCC. And you notice the red lines, which are the 
tide gauge data referred to earlier by Congressman Speier, we 
see the blue line. These are the data which are now available 
from satellites, which are tracking ocean elevation far more 
precisely for global computation than local estimates at tide 
gauge stations. And you will see that the blue line extends up 
to the upper part of this curve, and the three bounds, the 
upper, the middle, and the lower lines, or the dotted line, 
were the estimates in 1990. In other words, the IPCC 
underestimated quite starkly the rise in sea level.
    We now know data, just in the last handful of years, how 
rapidly Greenland and Antarctica are changing. And best 
estimates of sea level rise now for this century are between 
2.5 and 3 feet.
    If you look at the next slide, you can see in the bars at 
the bottom, the lower, higher emission, and even higher 
emission scenarios for the IPCC, and on the left are the sea 
level rise that was projected in feet. And the circles at the 
top show what would be estimated today if you included the melt 
from Greenland and Antarctica. And from this, you would see 
this estimate I gave of 2.5 or 3.5 feet.
    Next I would like to comment briefly on ocean chemistry. 
The carbon dioxide added to the ocean changes the balance in 
the mineral composition of what we call the carbonate system. 
Organisms in the ocean that make shells, whether they are 
snail-like animals that swim, there are one-celled plankton 
that have shells, we call them foraminifera and 
coccolithophorids, or corals; all make these shells out of 
calcium carbonate. Calcium carbonate is in a very, very 
delicate balance in the ocean. The organism is taking the 
dissolved constituents out of the water, making its hard shell, 
but the water is trying to pull it back in the solution and 
trying to redissolve it. The organism is constantly working to 
excrete material; the ocean is trying to dissolve it. As you 
add carbon dioxide to the ocean, you change the composition, 
change the relationship, with this buffering system. It becomes 
more corrosive. That is referred to as ocean acidification.
    We know now the rates at which this is changing are faster 
than any time, any time in the history that we can reconstruct 
over the last several million years. Now, just finally, I am 
going to say something about the distribution of organisms. 
This is very close to where Congressman Markey and I live, 
which shows in the lower graph how the distribution of cod 
would change with the warming that is expected.
    Let me just conclude by saying that these changes are in 
the scientific literature beyond all bounds of historic record. 
And I would just like to comment with an opinion, in response 
to your last question, that I think that climate scientists 
have an obligation to do everything we can to help convey 
clearly this message to the public. Thank you.
    [The statement of Mr. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T2590A.024
    
    [GRAPHIC] [TIFF OMITTED] T2590A.025
    
    [GRAPHIC] [TIFF OMITTED] T2590A.026
    
    [GRAPHIC] [TIFF OMITTED] T2590A.027
    
    [GRAPHIC] [TIFF OMITTED] T2590A.028
    
    [GRAPHIC] [TIFF OMITTED] T2590A.029
    
    [GRAPHIC] [TIFF OMITTED] T2590A.030
    
    [GRAPHIC] [TIFF OMITTED] T2590A.031
    
    [GRAPHIC] [TIFF OMITTED] T2590A.032
    
    [GRAPHIC] [TIFF OMITTED] T2590A.033
    
    [GRAPHIC] [TIFF OMITTED] T2590A.034
    
    [GRAPHIC] [TIFF OMITTED] T2590A.035
    
    [GRAPHIC] [TIFF OMITTED] T2590A.036
    
    [GRAPHIC] [TIFF OMITTED] T2590A.037
    
    [GRAPHIC] [TIFF OMITTED] T2590A.038
    
    [GRAPHIC] [TIFF OMITTED] T2590A.039
    
    [GRAPHIC] [TIFF OMITTED] T2590A.040
    
    [GRAPHIC] [TIFF OMITTED] T2590A.041
    
    [GRAPHIC] [TIFF OMITTED] T2590A.042
    
    [GRAPHIC] [TIFF OMITTED] T2590A.043
    
    [GRAPHIC] [TIFF OMITTED] T2590A.044
    
    [GRAPHIC] [TIFF OMITTED] T2590A.045
    
    The Chairman. Thank you, Dr. McCarthy, very much.
    Our third witness is Lord Christopher Monckton.
    He is chief policy advisor for the Science and Public 
Policy Institute. He holds a diploma in journalism from the 
University College Cardiff. He has worked as an editor at 
various news outlets, including the Universe, the Telegraph 
Sunday Magazine, Today newspaper, and the Evening Standard.
    From 1982 to 1986, he was an advisor to UK Prime Minister 
Margaret Thatcher and gave policy advice on a variety of 
issues. He is the founder and director of Christopher Monckton, 
Limited, which consults in public administration.
    We welcome you, sir. Whenever you are ready, please begin.

             STATEMENT OF LORD CHRISTOPHER MONCKTON

    Mr. Monckton. Mr. Chairman, sir, and Ranking Member 
Sensenbrenner, it is a pleasure to see you both again and also 
many other faces on your committee.
    Thank you for having the courtesy to ask me to testify in 
front of you. I am going to testify, not of course as a 
scientist, because I am not one, but as a policy maker. And the 
role of policy makers when confronted with scientists is to 
know what questions to ask. And I am going to raise one or two 
questions now about some of the evidence you already heard.
    If you look at the slide now before you, that slide 
purports but does not demonstrate that the rate of global 
warming is itself increasing. This is taken from the IPCC's 
2007 report where it appears three times, large and in full 
color. However, it relies on a bogus statistical technique 
which is applying multiple trend lines to a single stochastic 
data set. And if you choose your starting and ending points 
carefully enough, you can make it go in any direction you want.
    This graph is regularly relied upon by Mr. Pachauri of the 
IPCC. I challenged him on it recently in Copenhagen. It is also 
relied upon by the EPA. It is defective, as I shall now show.
    Next one, please. This graph is the same data, but this 
time with different trend lines on it. From 1905 to 1945, you 
will see that the temperature rose faster than from 1905 to 
2005. Does this mean that the rate of global warming is slowing 
down? No, it doesn't. But this graph and the previous one are 
bogus, but they are using the same technique on the same data 
to produce opposite conclusions. That is why the IPCC should 
not have used that first graph, which has been so heavily 
relied upon.
    Let us now see what the true position is. Next slide, 
please. You will see, in fact, there have been three periods of 
quite rapid warming over the last 150 years, 1860 to 1880; 1910 
to 1940; and 1976 to 2001. Those three rates of warming are 
exactly parallel. Recently when Senator Vitter questioned Mr. 
John Holdren about this, he tried to claim that the third rate 
of increase was greater than the other two. It isn't. They are 
exactly parallel at roughly 1.6 Celsius per century.
    Now, we can't explain what caused the first two rapid rates 
of warming because we didn't have the instrumentation to find 
out. However, in the satellite area, to the right of the green 
vertical line there, we are able to observe what caused most of 
the third piece of rapid warming.
    Next slide, please.
    And this is from a paper by Dr. Pinker and her colleagues 
in 2005 showing a very rapid increase in what is called global 
brightening, the amount of sunlight actually reaching the 
surface of the earth, enough global brightening, in fact, to 
cause a warming of 1 Celsius degree, though only .37 Celsius 
degrees was noticed over that 18-year period. So if anyone 
tries to tell you that we cannot explain the global warming 
over the last 30-years except by reference to carbon dioxide, 
this graph and many others like it in the scientific literature 
should suggest otherwise.
    Next slide, please.
    And if we now include that data from Dr. Pinker, together 
with the various forcings and temperature increases from the 
individual greenhouse gases, we will see that what we end up 
with is a fourfold overstatement of the rate of increase in 
global temperature that was actually observed if we use the 
IPCC's methods to calculate what the warming would have been, a 
fourfold exaggeration.
    Next slide, please. And this result is confirmed most 
recently by Professor Richard Lindzen and his colleague Yong-
Sang Choi in a paper published in 2009 and published again this 
year, showing 11 models all predicting various rates of warming 
from 1.4 to infinity Kelvin if you double CO2 concentration. 
Next slide, please. The reality however is just .7, which is 
less than a quarter of what the UN would predict for a doubling 
of CO2 concentration.
    The conclusion from this is that we can explain the warming 
by other methods. Not very much warming is going to happen, and 
therefore, one should be very careful before spending money--
next slide, please--on cap and trade, because even if we were 
to shut down the entire global economy for 23 years, all you 
would forestall is 1 Fahrenheit degree of global warming, even 
if the UN is right in estimating the amount of warming from 
CO2. Therefore, the correct policy is to have the courage to do 
nothing. You will lose nothing thereby. There are many other 
problems to address. I would recommend you address those and 
not this.
    [The statement of Mr. Monckton follows:]

    [GRAPHIC] [TIFF OMITTED] T2590A.046
    
    [GRAPHIC] [TIFF OMITTED] T2590A.047
    
    [GRAPHIC] [TIFF OMITTED] T2590A.048
    
    [GRAPHIC] [TIFF OMITTED] T2590A.049
    
    [GRAPHIC] [TIFF OMITTED] T2590A.050
    
    [GRAPHIC] [TIFF OMITTED] T2590A.051
    
    [GRAPHIC] [TIFF OMITTED] T2590A.052
    
    [GRAPHIC] [TIFF OMITTED] T2590A.053
    
    The Chairman. Thank you, Lord Monckton, very much.
    Our fourth witness today is Dr. Chris Field. Dr. Field is 
the founding director of the Carnegie Institution's Department 
of Global Ecology. He is also a professor of biology in 
environmental earth science at Stanford University. He was a 
coordinating lead author for the 2007 fourth assessment report 
of the Intergovernmental Panel on Climate Change. Currently he 
is co-chair of the Impacts, Adaptation, and Vulnerability 
Portion of the upcoming IPCC report. Dr. Field received his 
Ph.D. from Stanford in 1981. Among his many distinctions, he is 
a member of the National Academy of Sciences.
    We welcome you, Dr. Field.

            STATEMENT OF CHRISTOPHER B. FIELD, PH.D.

    Mr. Field. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner, and other distinguished members of the 
committee.
    What I would like to do today is take a couple of minutes 
to talk about observed changes in the climate system. I won't 
be focusing at all on projections, but only things that have 
been observed and are clear in the record.
    If I could have the slides, please.
    As Dr. Hurrell has said, it is very clear that during the 
period when we have had good instrumental records from weather 
stations, the global climate has warmed. The record you see 
here is the land temperatures from all the world's 
meteorological stations. Since the late 19th century, the 
warming has been about 1.5 Fahrenheit, with all of the warmest 
years in the record in the last dozen; 2009, based on the data 
from the NASA Goddard Institute for Space Studies, was the 
third warmest year on record.
    If we look at the United States, next slide, please, you 
see a very similar pattern but with a lot more jumpiness, as 
you would expect for a region that represents only about 2 
percent of the planet's surface.
    What I would like to do is spend a couple of minutes 
talking about whether there are other ways we could infer 
whether or not the climates change. Is nature telling us how 
climates change? And the next slide, please, gives an overview 
of what the IPCC has concluded.
    We have a wide range of observations, now spanning many 
decades, on a tremendous number of physical and biological 
systems. These are things like, what are the locations of the 
snouts of glaciers? What are the times when buds burst or when 
flowers flower?
    The IPCC examined a bunch of these records and concluded 
that there were over 29,000 statistically significant changes 
in these physical and biological systems. And then it said, 
well, which of these are changing in the direction that is 
consistent with climate change being the forcing, and which are 
changing in the direction that is not consisting? The 
overwhelming conclusion is that the vast majority of these 
natural thermometers are indicating that global warming is 
occurring.
    Fully 94 percent of the statistically significant changes 
in physical systems are consistent with global warming. Fully 
90 percent of the statistically significant trends in 
biological systems are consistent with global warming.
    One couldn't look at any single one of these trends and 
conclude that it is proof that the climate system is warming. 
But when you step back and look at all 29,000, there is a 
tremendous level of confidence in the numbers.
    Now, a lot of these trends are issues that don't 
necessarily have a lot of traction on human systems, but I want 
to focus on three that do. Next slide, please.
    Most States in the American west get at least half of their 
water supply for summertime from snowpack. And we have seen 
dramatic changes in the water content of the spring snowpack, 
the April 1st snowpack, over the last 50 years. In the Pacific 
Northwest, there has been a decrease of about 30 percent. In 
the interior ranges, there has been a decrease of about 20 
percent. This is the water supply that water-short regions 
depend on in order to make it through the summer, and over the 
last 50 years, we have seen profound decreases.
    Next slide, please.
    Another impact that is really clear from the data is that 
wildfires have been increasing across the American West and 
that the frequency of wildfires is strongly sensitive to 
temperature anomalies. What you can see in the plot is that the 
black line tracing annual temperature almost traces precisely 
the variation in the number of wildfires. Essentially, the risk 
of wildfires goes up dramatically as the temperature goes up.
    A third observed trend I want to talk about is in the next 
slide. And this is the trend of observed changes in the days 
with the heaviest precipitation. What you can see is that, from 
the middle of the last century, there has been a 67 percent 
increase in the days with the heaviest precipitation in New 
England. Over all of the eastern U.S., there has been at least 
a 20 percent increase in days with heavy precipitation. Heavy 
precipitation is essentially the driving force for the kinds of 
floods that we have seen in Tennessee recently.
    We can't look at any single weather event and ascribe it 
with 100 percent confidence to climate. But what we can see is 
that this kind of change in the climate system is increasing 
the risk of damaging weather events.
    You know, I think that all of us would agree that you can't 
get in a car with a bald tire and have confidence that you are 
going to have an accident, but you can say that you would 
consider the risk unacceptable. With climate, I think it is 
very clear that we have now pushed the system to a point where 
it basically has four bald tires and a flashing ``check 
engine'' light. Thank you very much.
    [The statement of Mr. Field follows:] 

    [GRAPHIC] [TIFF OMITTED] T2590A.054
    
    [GRAPHIC] [TIFF OMITTED] T2590A.055
    
    [GRAPHIC] [TIFF OMITTED] T2590A.056
    
    [GRAPHIC] [TIFF OMITTED] T2590A.057
    
    [GRAPHIC] [TIFF OMITTED] T2590A.058
    
    [GRAPHIC] [TIFF OMITTED] T2590A.059
    
    [GRAPHIC] [TIFF OMITTED] T2590A.060
    
    [GRAPHIC] [TIFF OMITTED] T2590A.061
    
    [GRAPHIC] [TIFF OMITTED] T2590A.062
    
    [GRAPHIC] [TIFF OMITTED] T2590A.063
    
    The Chairman. Thank you, Dr. Field, very much.
    And our final witness today is Dr. Lisa Graumlich.
    Dr. Graumlich is the director of the School of Natural 
Resources and the Environment at the University of Arizona. Her 
research focuses on the interplay of global climate change and 
natural resources management. She has also directed the 
University of Arizona's Institute for the Study of Planet Earth 
and Montana State University's Big Sky Institute. Recently she 
served on the Oxburgh inquiry panel that reviewed the 
scientific work of the University of East Anglia's Climate 
Research Unit following the release of private e-mails of some 
of their scientists.
    Dr. Graumlich received her Ph.D. from the College of Forest 
Resources at the University of Washington. She is a fellow of 
the American Association for the Advancement of Science.
    We welcome you, Dr. Graumlich.

             STATEMENT OF LISA J. GRAUMLICH, PH.D.

    Ms. Graumlich. Chairman Markey and Ranking Member 
Sensenbrenner and the rest of the members of the committee, 
thank you so much for inviting me to speak with you today in 
this very important hearing.
    In what I am going to say today and in my written 
testimony, I have focused on the observational record of 
current and past climate variability. And I do that as a tree 
ring scientist, as a dendrochronologist by training. And I want 
to spend a moment talking a bit about the kind of perspective 
that one brings to this question as someone that has looked at 
tree ring records of the past.
    And I am going to take you back in time 20 years, when I 
was an assistant professor at UCLA. As a tree ring scientist, I 
was off to the Sierra Nevada to look for very, very old trees, 
and in fact found them, very, very old Foxtail Pines, a 
relative of Bristlecone Pines, high up at the upper tree line 
in the Sierra Nevada. But what shocked me when I got there was 
not the old trees, I expected to find those there, but as you 
went above the tree line, there were very large dead trees, I 
mean very large dead trees, above current tree line. Not just a 
couple, hundreds of them. And what that meant was that, in 
previous eras, tree line had been higher, implying that 
temperatures had been warmer.
    So as a trained tree ring scientist it turns out that we 
can very accurately date the innermost rings of those dead 
trees that tells us when the trees were established and the 
outermost ring with a little sort of 50 year or so error 
because of the loss of sap which tells us when those trees 
died. So what we know is over the last 3,000 years, tree line 
was higher, and then somewhere around 950 A.D., there was this 
massive die-off, and tree line reestablished at the current 
rate.
    So I went back to the lab, started looking at those data 
and started to also reflect on the fact that if you thought 
about those dates, those dates were very consistent with the 
time in which the Norse Vikings colonized Greenland and 
Iceland. And the dates at which my trees died were about the 
same time as those colonies failed.
    So, recall this is 20 years ago, there were two outcomes. 
One is that I became fascinated with, what caused this long-
term variability in climate? But the second outcome that is 
apropos today was that I was very much struck by the fact that, 
when I described my research to the public, it was very clear 
that it appeared to them that I had this very strong ability to 
say that, yes, current climate trends were well within the 
envelope of natural variability because I had trees in Sierra 
Nevada and historical data in the North Atlantic.
    That is not climate science. That is assembly of a couple 
of just-so stories that tell us something about climate at two 
places on the surface of the earth. And what has happened 
subsequently is that, along with dozens of colleagues, we have 
very carefully scanned the earth for other kinds of high-
resolution proxy data; tree ring records, historical documents, 
speleothems, ice cores, any number of barb sediments, if you 
try to understand how they reflect or don't reflect temperature 
data.
    In doing that, we discovered that in fact there were a 
couple of other places around the globe that had this medieval 
warm period, in particular the Eurasian part of the Arctic and 
parts of, of course, the North Atlantic and the western part of 
the U.S.
    In other places, like the Northwest, the tropical Pacific, 
temperatures were also cooler during the so-called medieval 
warm period, and that this, dozens and dozens of peer-reviewed 
studies have allowed us to be able to assert with great 
confidence, after 20 years of looking for these kinds of 
records, that in fact the late 20th Century is the warmest 
period of earth history in the last 500 to 1,000 years.
    So, finally, it is these kind of data that were assembled 
by the Climatic Research Unit at the University of East Anglia. 
I had the opportunity to participate as one of the panel 
members in Lord Oxburgh's Scientific Assessment Panel. And in 
looking at that, and I want to quote the key response, is that 
we saw no evidence of any deliberate scientific malpractice in 
any of the work of the climate research unit, and had it been 
there, we believe that we would have detected it. Rather, we 
found a small group of dedicated, if slightly disorganized, 
researchers who were ill-prepared for being the focus of public 
attention. The full report from that panel is appended to my 
own testimony. Thank you.
    [The statement of Ms. Graumlich follows:]

    [GRAPHIC] [TIFF OMITTED] T2590A.064
    
    [GRAPHIC] [TIFF OMITTED] T2590A.065
    
    [GRAPHIC] [TIFF OMITTED] T2590A.066
    
    [GRAPHIC] [TIFF OMITTED] T2590A.067
    
    [GRAPHIC] [TIFF OMITTED] T2590A.068
    
    [GRAPHIC] [TIFF OMITTED] T2590A.069
    
    [GRAPHIC] [TIFF OMITTED] T2590A.070
    
    [GRAPHIC] [TIFF OMITTED] T2590A.071
    
    [GRAPHIC] [TIFF OMITTED] T2590A.072
    
    [GRAPHIC] [TIFF OMITTED] T2590A.073
    
    [GRAPHIC] [TIFF OMITTED] T2590A.074
    
    [GRAPHIC] [TIFF OMITTED] T2590A.075
    
    [GRAPHIC] [TIFF OMITTED] T2590A.076
    
    [GRAPHIC] [TIFF OMITTED] T2590A.077
    
    The Chairman. Thank you, Dr. Graumlich, very much.
    The Chair will now recognize himself for a round of 
questions.
    Today is election day in the United Kingdom, and it is 
unclear which party will emerge as the winner. What is clear is 
that the leaders of the three major parties believe carbon 
pollution must be addressed. Nick Clegg, the leader of the 
Liberal Democrats, has said, ``climate change scientists now 
agree that time is running out; the next Parliament is the last 
chance we have as a nation to introduce the bold measures of 
radical legislation leading us to set us on the path to green 
and sustainable growth in the future.''
    Gordon Brown, leader of the Labor Party, has said, 
``everybody knows the importance of climate change; it is one 
of the key issues that has moved me most and has made me 
determined to act internationally as well as nationally over 
the past few years.''
    David Cameron, leader of the Conservatives, has said, ``we 
all agree that climate change is one of the greatest and most 
daunting challenges of our age; we have a moral imperative to 
act and act now.''
    And this concern about global warming is not new for 
British politicians. Please play the videotape.
    [Video shown.]
    The Chairman. So Dr. Hurrell, despite all the stolen e-
mails, IPCC issues, what is your conclusion in terms of the 
strength of the case that has been made that global warming is 
real and that the consequences are catastrophic?
    Mr. Hurrell. I very much agree with those conclusions. I 
think, as I tried to state in both my written and my oral 
testimony, much of the strength lies not in individual papers, 
individual data sets, individual analyses, but rather the fact 
that there are many multiple lines of evidence conducted by 
multiple investigators, as we heard in the other oral 
testimonies, spanning many different physical and biological 
variables that all give a very consistent picture of global 
warming, of a warming world, and the science has advanced to 
the point that we can clearly attribute these changes to human 
activities and, in particular, the buildup of greenhouse gas 
emissions in the atmosphere.
    The Chairman. Dr. McCarthy, Lord Monckton had a very 
complicated explanation of the global temperature record. Can 
you tell us simply what is happening in the global temperature 
record and if it is attributable to human activities?
    Mr. McCarthy. There have been a number of efforts over the 
last maybe 10 to 15 years to use the knowledge we have of what 
could change climate, and some of these factors were referred 
to by Mr. Monckton.
    We know that greenhouse gases influence climate. We know 
that clouds influence climate. We know that solar variability 
can influence climate. And we know that there are natural 
cycles, referred to earlier as, for example, the El Nino cycle.
    And when you use these known aspects of climate to 
reconstruct climate over the last few decades, you find that 
there aren't big missing pieces, that the changes in climate 
that we have observed can be explained. Why was 1998 such an 
exceptionally warm year? As already referred to by Jim Hurrell, 
a year of an exceptionally warm, probably the warmest El Nino 
that we know for the last 100 years.
    Why was 1992, 1993 and 1994 unusually cool relative to the 
years before, immediately following the eruption of Mount 
Pinatubo, the largest volcano to have affected climate? Our 
most recent volcano that was very much in the news will 
probably not have much effect on climate because the release of 
material from that volcano was low in the atmosphere and, of 
course, we know interrupted air traffic.
    So when you put these pieces together you find that there 
aren't big gaps. There aren't periods where you can't explain 
how climate has changed.
    Now, when you go back further in time, it becomes more 
difficult. But if you mark from like 1980, which is when we 
have satellite observations of Earth's surface, satellite 
observations of ice. In 1991, when Mount Pinatubo was erupted, 
satellites could measure directly its contribution to the upper 
atmosphere. When you put these pieces together, there are no 
great mysteries about how climate has changed over the last 10 
to 20 years, and it is entirely consistent with the forcing by 
greenhouse gases.
    The Chairman. And Dr. Field, why don't you just quickly try 
to answer that question as well?
    Mr. Field. You know, one of the major focal areas in 
climate science over the last several decades has been a topic 
that is called fingerprinting; how could we really be sure that 
the climate change that is now unequivocal is a consequence of 
human actions?
    And there are a large number of independent climate 
fingerprints for human action, most of which don't require 
fancy climate models at all. A good example of a fingerprint is 
that if climate change is caused by greenhouse gases, we expect 
most of the warming to be in the lower atmosphere, with cooling 
in the upper atmosphere, exactly as we see.
    Dr. McCarthy already mentioned this balance between the 
heat that you calculate should be in the climate system, and 
the amount of heat that we actually see in the oceans.
    These fingerprinting techniques are very, very powerful at 
discriminating alternative explanations, and they point 
overwhelmingly at the human release of heat-trapping gases as 
the dominant cause of warming over the last half century.
    The Chairman. And you agree, Dr. Graumlich?
    Ms. Graumlich. Yes, I do.
    The Chairman. Let me ask this, do you each disagree with 
Lord Monckton's analysis of whether or not there is global 
warming trend and it is a danger to the planet? Do you disagree 
with him, Dr. Hurrell?
    Mr. Hurrell. Yes I do.
    The Chairman. Dr. McCarthy.
    Mr. McCarthy. Mr. Monckton said he is not a scientist; he 
works in the policy arena and, on the basis of the sciences he 
reads, that he doesn't think it calls for policy action.
    I think most scientists who look at the data believe that 
it does need policy action.
    The Chairman. Thank you.
    Dr. Field.
    Mr. Field. Many scientists have looked at the issue. 
Warming is unequivocal. The evidence for the human fingerprint 
is very, very strong, and the prospect of continued warming in 
the future is very strong.
    The Chairman. So you do disagree with Lord Monckton?
    Mr. Field. I do disagree with Lord Monckton.
    The Chairman. Dr. Graumlich?
    Ms. Graumlich. I disagree with Lord Monckton's conclusions 
based on the evidence that he presented as well.
    The Chairman. Thank you.
    My time is expired.
    Let me turn and recognize the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Dr. Graumlich, you were on the Oxburgh panel, weren't you?
    Ms. Graumlich. Yes, I was.
    Mr. Sensenbrenner. Do you have a professional relationship 
with any of the scientists who were criticized during 
Climategate?
    Ms. Graumlich. I, as a member of the paleoclimatic 
community, have an acquaintanceship with many of the people 
that were mentioned in the e-mails. You are probably aware that 
both Dr. Malcolm Hughes and I are from the University of 
Arizona and that we both have professional relationships with 
the Laboratory of Tree Ring Research there.
    Mr. Sensenbrenner. Have you co-authored papers with Dr. 
Hughes?
    Ms. Graumlich. I have co-authored one book chapter with Dr. 
Hughes.
    Mr. Sensenbrenner. Has your work relied on information or 
data from the CRU?
    Ms. Graumlich. No, it hasn't.
    Mr. Sensenbrenner. Pardon?
    Ms. Graumlich. No, it hasn't.
    Mr. Sensenbrenner. The tree ring data in the hockey stick 
graph were directly called into question by Climategate. Have 
you relied on any of that in any of your professional work?
    Ms. Graumlich. The data that myself and my students have 
produced have been at times part of these very, very large 
compilations of data that have allowed us to assess the nature 
of climate variability over the last 500 to 1,000 years. The 
hockey stick, per se, is never quoted in my own professional 
work.
    Mr. Sensenbrenner. What did the panel learn from critics of 
the CRU's scientists during its review?
    Ms. Graumlich. What I think the panel took away from the 
critics of the CRU scientists is that, in particular, what we 
discovered was that, for example, the archiving of raw data and 
the development of documentation on computer code, such that it 
could be widely distributed and understood by the general 
public, was something that for years had not really been a high 
priority. Often it was unfunded by the kind of scientific 
funding sources that were available. And what was clear to the 
panel was that the stolen e-mails, as well as other things, 
other events, had motivated both scientists and science funders 
to do more public archiving of data.
    Mr. Sensenbrenner. Did the panel interview any of the 
critics of the CRU data?
    Ms. Graumlich. No. That wasn't our charge. We were charged 
to----
    Mr. Sensenbrenner. Well, why not? How can you get an 
objective viewpoint if you just look at one side of the issue?
    Ms. Graumlich. The charge to the panel was to look at the 
scientific integrity of the publications of the CR unit, and we 
fulfilled that charge.
    Mr. Sensenbrenner. Were--well, then, that was an extremely 
limited charge, you know, that pre-ordained a conclusion. Was 
there any analysis of the actual e-mails or the biases that 
they exposed?
    Ms. Graumlich. That was not part of our charge, and that 
was actually part of other kinds of inquiries that have gone 
on.
    Mr. Sensenbrenner. Okay. Now, were you aware of any of the 
biases of the other members of this seven-person panel?
    Ms. Graumlich. I believe that the panel was chosen to 
minimize bias.
    Mr. Sensenbrenner. Well, Lord Oxburgh has strong personal 
and financial interests in the anti-global warming policy. He 
is director of an international environmental organization 
called Globe International. He is also chairman of a green 
energy firm called Falck Renewables, and president of the 
Carbon Capture Storage Association.
    And there was an article that appeared in the Times of 
London on April 14th where Lord Oxburgh himself even told the 
university that he was unfit to chair the panel because of 
conflicts of interest and warning the UEA that people might 
question his independence. Were any of those issues raised 
either on Lord Oxburgh or any of the other members of the 
panel?
    Ms. Graumlich. Those issues weren't raised. What we were 
focusing on was the science of the climate research unit as 
revealed in their publication record and in their day-to-day 
operations. And Lord Oxburgh was actually a--functioned very 
much as someone who has a Ph.D. in Earth sciences and brought 
his scientific mindset to that task.
    Mr. Sensenbrenner. Well, if he is a director of an advocacy 
organization called Globe International, you know, I have had 
meetings with and tiffs with ever since Kyoto, you know, 
together with the intertwining of you and other members, I 
don't think that that was an objective review. I don't know how 
universities in the United Kingdom get to the bottom of 
potential scandals, but I don't think our news media here in 
the United States would allow any university to get away with a 
panel that would come to a pre-ordained conclusion.
    And I yield back the balance of my time.
    Mr. Blumenauer [presiding]. I guess I am having these terms 
echoing in my ear. I mean, it seems to me that it is a very 
stark difference. Dr. Graumlich, you were talking about 
focusing on the science. Our purpose today was to do precisely 
that; and I find it a little embarrassing and sad that the 
minority's witness is a journalist with no scientific training, 
who didn't come here with any information against the science.
    It has been intriguing to me. I have heard Mr. Monckton--I 
have often thought appropriately named--in the past; and it is 
entertaining, but it doesn't deal very much with the essence of 
what we are talking about here. My sense is that it wasn't Dr. 
Graumlich. There were several other studies. There has been one 
by the British House of Commons. There has been one by the 
university itself, if I understand it correctly, one by Penn 
State.
    Ms. Graumlich. Yes.
    Mr. Blumenauer. All have looked at the science----
    Ms. Graumlich. Right.
    Mr. Blumenauer [continuing]. And concluded that this is a 
tempest in a teapot. I mean, there is nothing here that 
contradicts the basic science that has been reiterated by the 
other three distinguished scientists that join you on the 
panel; is that correct?
    Ms. Graumlich. That is correct.
    And if I could add to the list of reviews that have 
happened, at my own institution, the University of Arizona, at 
the request of the president, all of the e-mails--an inquiry 
was made. Every single e-mail was read, including those that 
dealt with Dr. Hughes; and there was a finding that there was 
no impropriety that affected the scientific conclusions of Dr. 
Hughes and others.
    Mr. Blumenauer. Though I suppose I should declare, for the 
purposes of the record, I have worked with GLOBE International 
in other areas, dealing, for instance, with serious problems 
dealing with international water supplies. I don't think it has 
affected my objectivity, nor did I notice any sinister 
underlying motives or an international agenda at work.
    Dr. McCarthy, it is good to see you again. I am remembering 
that we first met in your office 10 or 12 years ago, where you 
were kind enough to help walk me through some of these issues. 
In the course of those 10 or 12 years, not going back now to 
1986 when you talked about the trends that first sort of caught 
your attention, but just in the 10 or 12 years since we first 
met, have you seen anything in terms of the trend lines? Could 
you talk about whether the situation has gotten more urgent or 
less in that decade or more?
    Mr. McCarthy. Congressman, one thing I remember quite 
distinctly was our discussion about infrastructure and 
wondering the degree to which planning, particularly for a 
built infrastructure--the bridges, tunnels, mass transit 
systems, utilities of all sorts--should begin to be taken into 
consideration for our coastal cities the prospect of sea level 
rise. And at that time I can only guess that I would have said, 
well, this is something that we need to be concerned about in 
the future. But if you took the best estimates of the IPCC at 
that time, the planning horizons were out many decades. Now 
that has all become very compressed in time in the last decade 
because of the new knowledge of the rate at which ice loss is 
going to affect sea level rise.
    So you look at any of our coastal cities, if you look at 
the shape of Florida, with 2\1/2\ or 3\1/2\ feet of sea level 
rise a century, it is a very different-looking Florida. And 
although you think that rise--just the height of the counter 
here is not a lot, but when you consider low-lying land and how 
far that reaches inland, our Gulf Coast, very much in the news 
these days, will be dramatically affected by a sea level rise 
of that sort. And, of course, there are entire island nations 
that, with the combination of the sea level rise and the loss 
of coral through the change of pH in the ocean, will be at 
risk. So that would be my biggest sense of change.
    And, of course, in that period, as has been pointed out, we 
have seen temperature record after temperature record broken 
for the global average temperature.
    Mr. Blumenauer. And in terms of the, quote, ``mistakes of 
the IPCC,'' I mean, what you have demonstrated with your 
testimony is that the studies, the projections were actually 
very conservative.
    Mr. McCarthy. People tend not to appreciate how 
conservative the IPCC process is. When you get a bunch of 
scientists together and get them to agree on a statement, 
trimming as many caveats out as you can because the scientists 
always want to add caveats, well, we are not entirely sure, but 
this would be what would be expected, you end up with a 
conservative statement. You end up without extremes on other 
side being represented. In this case, in sea level, it was a 
very conservative statement.
    Mr. Blumenauer. Thank you.
    And it is. In terms of the risks that are at stake, we take 
in the Northwest very seriously that diminution of the snow 
pack, the less water content, pretty dramatic just in the 
community that I live in. And the fact that more than half of 
the American population is in the 673 coastal counties, when 
you are talking about inches, let alone feet, this is pretty 
compelling, at least in my mind.
    But the point I guess in terms of a policy perspective, 
based on the potential risks, based on the economic, the 
security problems, and just the waste of resources, is there 
any good scientific reason not to advance sound policies, even 
if we weren't concerned about global warming?
    Stunned silence. All right. That is fine. Why don't we--I 
will turn to Mr. Shadegg for your inquiry.
    Mr. Shadegg. Thank you, Mr. Acting Chairman, if that is 
what you are.
    First, let me begin by apologizing. I have had to duck in 
and out a couple of times because I have another hearing going 
forward downstairs on the health care issue.
    Second, I want to welcome Dr. Graumlich. You are now at my 
alma mater, the University of Arizona, where I received both my 
undergraduate and law degree. I am pleased to have you here, 
and I am proud of the University of Arizona and proud of it 
being recognized for the knowledge and skill of its scientists 
and professors.
    I guess I have to begin, Dr. Monckton, by expressing a 
little shock at the questioning that just went forward and some 
reference to your name. I think that is a little inappropriate, 
but if that is what we are going do in this hearing, so be it.
    I do believe you were just told that, because you are not a 
scientist, you didn't bring forward any scientific information 
or any information of any value to this hearing. Somehow I 
don't seem to agree with that. I think you brought forth an 
analysis of scientific information, which I thought was fairly 
clear. And I guess I would like to see you at least have an 
opportunity to repaint that picture, because, apparently, some 
people in the room didn't understand that what you said was, 
here is scientific data, here is how it was presented, here is 
the conclusion that was drawn from that scientific data, and 
here is why that conclusion is, in fact, unsupported. And, 
apparently, that escaped the attention or the understanding of 
some people here. Is there a possibility we could call that 
graph back up and you could explain it to us? Maybe we can get 
it the second time.
    Mr. Monckton. I am most grateful. I think obviously what is 
happening here is that a certain amount of politics has crept 
in on one side of this debate----
    Mr. Shadegg. What a shock.
    Mr. Monckton [continuing]. And, therefore, inconvenient 
science has been dismissed as not being science at all.
    That is the IPCC's graph with the four separate trend lines 
on it. That, as I have said, is an inappropriate statistical 
technique.
    Next slide again.
    Mr. Shadegg. While we are on that one, the purpose of those 
lines, this actually appears in the IPCC report?
    Mr. Monckton. It does three times, yes.
    Mr. Shadegg. And all those lines slope upward at different 
angles.
    Mr. Monckton. That is right. As you get nearer to the 
present, they slope up at steeper and steeper angles. The 
implication which is stated three times in the report being 
that there is an acceleration of the rate of global warming. 
No, there isn't, as we see from the subsequent slides.
    First of all, if you choose different starting points and 
ending points for where you do your trend lines, you can make 
the lines go completely--make the trend go in completely the 
other direction. There you have got 1905 to 1945 it was warming 
at twice the rate of 1905 to 2005.
    Mr. Shadegg. So it is the exact same data.
    Mr. Monckton. Same data, same technique. It is a bogus 
technique, of course, and that is why you get completely 
opposite results depending on where you choose to start and end 
your trend line.
    Mr. Shadegg. Incorrectly analyzed in the earlier graph to 
show a rapid increase in warming.
    Mr. Monckton. Exactly, and incorrectly analyzed again here.
    Next slide.
    Here is the true position where you have the three parallel 
rapid rates of warming. The first two cannot have been caused 
by CO<INF>2</INF> on any view. The increase in CO<INF>2</INF> 
over those periods wasn't enough, even on the U.N.'s formula, 
to cause that. The third one we know was largely caused because 
it falls in the satellite era, largely caused by a naturally 
occurring decrease in cloud cover chiefly in the tropics 
allowing more sunlight to hit the ground. And that, if you use 
the U.N.'s multiplying up of the warming effect of that should 
have caused one Celsius degree or 1.8 Fahrenheit of warming. 
Only naught .37 Celsius was, in fact, observed. So we now know 
that that third of the three rapid rates of warming was caused 
by a natural event almost entirely.
    Mr. Shadegg. Could you clarify something for the panel and 
for the people in the room listening? What is the satellite 
era?
    Mr. Monckton. The satellite era, from about 1983 onwards, 
we had satellites up there not only measuring changes in global 
surface temperature, which they do by reference to platinum 
resistance thermometers, comparing that with the temperatures 
they see on the ground, but also changes in outgoing radiation 
and changes in cloud cover. All of these satellite data show us 
exactly what has caused the warming of that most recent rapid 
period; and it was largely, in fact, very nearly all, to do 
with the reduction in cloud cover that happened quite naturally 
over the period. Nothing to do with CO<INF>2</INF>.
    Mr. Shadegg. And with regard to--I mean, you don't take the 
position that there has not been warming.
    Mr. Monckton. There has been warming. You can see it on the 
graph there. Of course there has been warming. Mr. Chairman, 
you have got that slightly wrong when you said I didn't say 
there had been warming. Of course there has been warming. What 
I am saying is that in the one period we can tell about what 
caused the warming, the satellite period, it is clear that the 
warming was largely naturally caused, and there is paper after 
paper in the literature establishing this.
    Go on again, please. Next slide.
    This is Dr. Pincus' paper establishing that the warming of 
that period was caused largely by a naturally occurring 
reduction in cloud cover, extra sunlight reaching the ground.
    Next slide, please, and the next one. We will miss that one 
out.
    We go on here to the 11 models, I should say, all 
predicting very, very rapid rates of warming, but this is the 
relationship between warming at the surface and extra outgoing 
long-wave radiation. Most of the models predict there will be 
less radiation escaping into space if you warm the surface. The 
truth, however, as you see in the middle panel now, that is the 
earth radiation budget experiment satellite measurement, it 
shows a very rapid increase in the amount of outgoing radiation 
escaping to space as you warm the surface. What that means very 
simply is that the radiation isn't being trapped down here to 
cause warming at anything like the rate that the U.N. predicts, 
and that is why Professor Lindzen of MIT has concluded that the 
amount of warming you can expect to get from a doubling of 
CO<INF>2</INF> concentration--this is scientific measurement, 
not playing with Xbox 360 models--is only naught.7 Kelvin, 
compared with a 3.26 plus or minus naught.69, which is the best 
estimate of the U.N.'s climate panel. Now, naught.7 Kelvin for 
a doubling of CO<INF>2</INF> concentration is small, harmless, 
and generally beneficial.
    Mr. Shadegg. I thank the gentleman, and I appreciate the 
indulgence of the chair in allowing you to answer.
    I guess your conclusion was we--I will just conclude with 
this remark--that we should do nothing. Certainly it appears to 
me that the majority got to pick four witnesses here. We got to 
pick one witness here. It is pretty evident that whether we do 
nothing, or what we do, there is clearly at least a dispute 
about the evidence. And it is not, in fact, apparently agreed 
upon.
    Mr. Chairman, I would also like at some point to ask 
unanimous consent to put into the record the actual e-mails 
which were exchanged which I believe show the dialog going on 
with regard to the analysis of the IPCC report.
    The Chairman. Without objection, it will be included in the 
record.
    [The information is in Select Committee records and is 
available at: http://globalwarming. house.gov/files/WEB/shadegg 
Materials.pdf or http://globalwarming. house.gov/pubs?id=0018]
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. And I would note there is a dispute about 
whether we actually landed on the moon, and there is a dispute 
about whether the earth is round, and there is a dispute about 
gravity in some places, but there is no----
    We will get to you, Lord Monckton, shortly, but I want to 
talk to the scientists on the panels, first, if that is okay. 
Thank you very much.
    Dr. McCarthy, I appreciate you bringing up the ocean 
acidification issues, which Dr. Jane Lubchenko of NOAA has 
called the evil twin of climate change. I would like you to 
describe what actually happens to species when they are 
exposed, and I want to put up a slide that I believe I got from 
Dr. Lubchenko.
    This slide basically shows what happens when you put a 
pterapod, a small creature, in the water. In the left, you see 
its picture. These are relatively small. And this shows what 
happens when you put a pterapod in water that will be in the 
same acidic conditions that will exist in the year 2100 if we 
do not change our course. So it basically shows that, according 
to Dr. Lubchenko, the pterapod melts. Its little calcium 
carbonate structure actually melts.
    And I just wonder if you can describe what the oceans will 
look like from an acidity standpoint in the next hundred years 
if we don't change course and what that does to the plankton 
that serves or could do to the bottom of the food chain.
    Mr. McCarthy. Thank you.
    This, like a lot of the other change we are talking about, 
is not simply a difference of one condition to another but the 
time period over which it happens. So if we look at changes in 
the ocean over the last million years, every 100,000 years or 
so we saw ice advance, retreat. We saw organisms that lived in 
the high north moving closer to the Equator, during the cool 
periods moving back on land, out of the ocean. In fact, it is 
interesting. There are very few extinctions during that period, 
that the memory, the genetics of organisms know in their 
history that being able to accommodate those changes is 
essential for survival.
    But when you crank those rates of change up, pH changed 
during those periods. Temperature changed. When you crank those 
rates of change up 100 or close to 1,000 fold, in some cases, 
then you exceed the capacity of ecosystems to adjust.
    Now, in this case, the pterapod--I was tempted to put a 
picture of a colorful animal in there. Pterapods are absolutely 
beautiful animals. And if you could have one in here in a 
beaker, the foot of the mollusk is thin and flaps like a wing. 
They are called sea butterflies. If you ever see them swimming, 
they are really--they are just spectacularly beautiful. It is a 
very delicate shell. They are a very, very important part of 
the food web in the north Pacific, particularly for salmon. We 
know that the pink salmon depends heavily on the pterapod for 
its food.
    That was just one example. I mentioned others, microscopic 
plankton, the foraminifer, and, of course, corals are all 
subject to the same condition. That is, as carbon dioxide is 
added to the ocean more rapidly than it can adjust, and if this 
were being added over the thousands of years, rather than over 
100, it would be a whole different story, more rapidly adjust. 
Then the constant tension of the animal, of trying to keep its 
skeletal material, its shell from dissolving becomes more and 
more in the favor of water. That is, water pulls those minerals 
back into solution. So this is the condition.
    And, of course, we know in the past, there has been more 
carbon dioxide in the atmosphere. We know that in the past the 
pH of the oceans have been different. We also know that there 
are periods in the past where organisms like this disappeared, 
that the conditions were not suitable for corals or mollusks to 
survive. So this is a very important issue.
    Mr. Inslee. So I am told that the waters are more acidic, 
30 percent more acidic than they were in pre-industrial times. 
What will they be at the end of the century, approximately, if 
things don't change?
    Mr. McCarthy. Well, I don't know how to express it in terms 
of percent, but if you take these extrapolations, as is done 
here experimentally, you can show what the effect would be of 
that changing acid base balance referred to in the vernacular 
as acidification. The oceans aren't becoming acid. They are 
becoming less alkaline. But it will dissolve these minerals.
    Mr. Inslee. Thank you.
    I was impressed--we are here as the House of 
Representatives to have the state of the science discussed 
about climate change. And I was impressed that those who have 
denied the threat this poses to the planet Earth couldn't 
produce one scientist, not one scientist to propose the 
hypothesis to explain what the Earth is undergoing, all the 
changes we are undergoing now. They produced somebody that 
doesn't even have a field, a background in science, and that is 
what they produce to try to convince Americans somehow that 
this is a big hoax. I think that is impressive or unimpressive, 
depending on how you look at it. So I want to ask about Lord 
Monckton's viewpoint and basis for that.
    Lord Monckton, when did you start serving in the House of 
Lords? I noticed you brought fraternal greetings from the 
mother of parliaments to Congress to our athletic democracy. 
When did you start serving in The House of Lords?
    Mr. Monckton. Sir, I have never sat or voted in The House 
of Lords, as you have probably been informed.
    Mr. Inslee. Thank you.
    So, basically, I want to understand--thank you. You have 
answered my question.
    You come here, you call yourself a Lord, to try to convince 
the world to ignore something that threatens our grand kids; 
and you are not even a Lord.
    Now let me finish my question, and then I will let you 
speak. Lord Monckton, in our athletic democracy, we will ask 
the questions, and you will answer them. Thank you very much.
    You come to our athletic democracy, sir, calling yourself 
Lord Monckton. Not only are you not a scientist, you are not 
even a Lord who served in the House of Parliament. Isn't that 
correct? In The House of Lords. Is it correct you did not serve 
in the House of Lords?
    Mr. Monckton. I think I have already answered that one, 
sir.
    Mr. Inslee. Okay. Thank you.
    So we not only have the deniers who have denied this clear 
science upon which there is enormous global consensus, they 
cannot only not produce one scientist to deny this clear 
consensus, they can't even send us a real Lord from The House 
of Lords.
    Now, I think that says a lot about the status of this 
debate which we should not be having. Because we have an 
overwhelming consensus, and I note that it is not just by these 
four scientists. Joe Barton, our good friend, asked the 
National Oceanographic and Atmospheric Administration to review 
your testimony, Lord Monckton, and this is what they said:
    ``The fact that globally average surface air temperature 
has shown no trend or even slight cooling over the last 7 years 
is not an accurate reflection of long-term general trends. In 
fact, calculation of a trend over the last 7 years is a gross 
mischaracterization of the longer-term trend. The last 7 years 
have been part of a strong warming trend that began in the 
1970s which is attributable to human influences, citing IPCC 
2007. During the last 7 years, six of the seven warmest years 
on record have all been observed based on NOAA's global land 
and ocean data. Deducing long-term trends over such a short 
period of time is comparable to estimating the height of a sea 
swell by looking at the short period waves on top of a swell.''
    NOAA, the people who work for our athletic democracy, have 
concluded we don't need a fake Lord to tell us not to act. We 
need real science, and we need us to have a clean energy 
policy. Thank you.
    The Chairman. The gentleman's times has expired.
    The chair recognizes the gentleman from Oklahoma, Mr. 
Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman.
    And, Lord Monckton, I guess I think you have a right to 
explain why you are a Lord, and I don't think you had an 
opportunity to.
    Mr. Monckton. I will do that very briefly, because this is 
not the subject of this hearing; and, once again, I see 
politics of a not particularly pleasant kind creeping in.
    My grandfather was created a hereditary peer, one of the 
last to be created, in 1957 and by letters patent issued by the 
Queen. Until those letters patent are revoked--and they have 
not been--I remain and am correctly addressed as the Viscount 
Monckton of Brenchley. I am therefore a Lord, but by virtue of 
the 1999 House of Lords Act I no longer have the right to sit 
or vote. That was taken away from my father, so I have never 
sat or voted in The House of Lords, nor have I pretended 
otherwise. And I think that really should deal with that 
matter. Thank you, sir.
    Mr. Sullivan. Thank you.
    Lord Monckton, what could the climate scientists do to 
regain the public trust in their work? What can they do to 
insure transparency and accountability in the climate scientist 
community, especially as we look towards the development of the 
upcoming IPCC's fifth assessment report?
    Mr. Monckton. Let me first of all begin with the quotation 
from NOAA's response to my written testimony which, 
incidentally, I wasn't given a copy of before this hearing, and 
I think somebody has slipped up there.
    But the passage that was quoted focused on one short 
sentence which mentioned that for the last 7 or 8 years there 
has been, if anything, a certain amount of global cooling. So 
there has. But, however, my temperature record goes back as far 
as the Neoproterozoic era, 750 million years ago. The graphs I 
showed today are for the last 150 years. So I don't think I can 
be fairly accused of having unreasonably cherry-picked the 
periods over which I was looking at the data.
    Now, what I think scientists therefore need to do if they 
want to start commanding the respect of the public, because 
they are losing that respect over this issue, is to stop 
chattering about consensus. Science has never been done by 
consensus, and it isn't going to be done by consensus now. Stop 
using in the IPCC's documents references to documents not 
produced by peer-reviewed sources but by green propaganda 
groups and by journalists and confine their analysis to the 
peer-reviewed literature, as I did today.
    And, also, they must make sure that, instead of trying to 
push one agenda and shout down anyone who dares to put an 
alternative point of view, as I have politely sought to do 
today, they should treat those who disagree with them with 
courtesy, hear with some care what they have to say, and 
instead of dismissing an argument they perhaps don't 
understand, as one of the panelists here did when asked to 
comment on my testimony, they should instead engage in a 
rational debate via the columns of the peer-reviewed literature 
with the many scientists who disagree with the official line.
    And, of course, scientists could have been paraded here 
today, but, quite rightly, the minority group, knowing that the 
majority would merely want to throw brickbats at them, decided 
that, instead, somebody with a certain amount of experience in 
politics and a thick skin should sit and take the cow pats 
flung at him, which I am more than happy to do, so as to spare 
the many thousands of diligent scientists who are questioning 
every aspect of this ludicrous scare to get on with their work, 
and that is what in the end is going to decide this matter. It 
is going to be diligent, scientific inquiry and not the hurling 
of childish political insults.
    Mr. Sullivan. Lord Monckton, some of these scientists--or I 
guess anyone can answer this question. Do some of these 
scientists--how are they funded? Do they get grants or are 
their organization that give them funding? Do you think that 
that has a potential to corrupt the process? And do they feel 
beholden to certain results because of that?
    Mr. Monckton. That is a very shrewd point, sir. The only 
reason why the notion that consensus decides science has 
unfortunately crept in is that science these days effectively 
is a monopsony. There is only one paying customer, and that is 
the unwilling taxpayer. And because of that and because of the 
grant-funding structure and because of the resultant academic 
pressures to come forth, it take enormous courage for any 
scientist to stand out against the political line that is now 
being taken among the scientific institutions and to say, hang 
on a moment; the numbers don't add up.
    I have just shown you today various points at which the 
numbers very plainly don't add up, and they are established in 
the peer-reviewed literature, and they are established by 
measurement and not by modeling.
    You have heard the rather qualitative replies of the four 
scientists here. They didn't really quote numbers much. They 
were quoting models. But science is best done and most 
accurately done by measurement, and those papers that rely 
chiefly on measurement are finding that there isn't the problem 
that we are told there is.
    Mr. Sullivan. Thank you, sir.
    Mr. Blumenauer [presiding]. Congressman Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Field--and I may want to get the other three to respond 
to this as well. I think all of the denials and all of the talk 
of Climategate has had an impact, at least in the United 
States. In 1997, Gallup began conducting polls on attitudes in 
the United States on climate change; and, tragically, the 
number of people who believe that climate change has been 
exaggerated, according to Gallup, the latest poll is 48 
percent. And until the latest poll, the number of those who 
embraced climate change as being impacted by human activity was 
on the way up. So the folk who have been fighting this have, 
unfortunately, from my vantage point, been winning.
    The poll also shows that--and maybe this is one of the 
reasons--that in areas where there was extreme cooling over the 
past winter, the people polled in those areas tend to embrace 
the theory that there has been exaggeration.
    One of the questions that I would like to ask is, what 
atmospheric condition needs to be at play for a higher level of 
snow on the planet?
    Mr. Hurrell. Well, perhaps one comment along those lines. 
Indeed, as I tried to emphasize in my testimony, global warming 
does not mean that changes are uniform everywhere. There are 
pronounced regional and seasonal variations, and this is due to 
the natural variability in the system. We still expect under 
climate change that we will have snowstorms. We will still have 
cold periods. Cold periods may become less frequent as we go 
into the future, but they will certainly occur.
    In terms of some of the heavy precipitation events, as my 
colleagues have spoken to today, a key ingredient in that is 
that, as the atmosphere warms, as it has unmistakably been 
observed, the warming, the atmosphere can hold more moisture; 
and, therefore, any given storm will precipitate more than it 
otherwise would have. As we have also been very explicit, that 
does not mean that you can attribute any individual storm to 
climate change, but, on average and statistically, we would 
expect to see an increasing trend in heavy precipitation 
events, including heavy snowstorms; and this indeed is being 
observed over many parts of the world.
    Mr. Cleaver. Though it is counterintuitive, the scientific 
truth is we have more snows if it is warmer.
    Mr. Hurrell. Yes. Again, that relates to the ability of the 
atmosphere to hold moisture. A warm atmosphere can hold more 
moisture, so when it does snow it will snow more.
    Mr. Cleaver. Dr. McCarthy.
    Mr. McCarthy. Thank you.
    This is a very complicated subject and one can take one 
little piece of it and make a headline out of it and find that 
it may be true but it sounds like a contradiction.
    So the place I live right now in the Northeast, what limits 
snowfall in the winter is not temperature but moisture, and 
that moisture may come off the Atlantic with a Nor'Easter. It 
may come up from the Gulf, or it may come off the lakes, the 
Great Lakes.
    So one of the early projections in climate models was in a 
warmer world we would have more snow accreting in Greenland and 
in Antarctica. Now that to many people sounded like a 
contradiction. But indeed, for exactly the reason that Dr. 
Hurrell just explained, a warmer atmosphere holds more 
moisture. The air comes off the ocean over Antarctica, over 
Greenland.
    Now early studies showed that that was indeed happening, 
not possible until we had very precise estimates of the 
elevation of these ice masses with satellites. But what we see 
at the edges, even though they are gaining snow more rapidly, 
Antarctica, it is the coldest continent. It is also the highest 
average elevation of any continent. It is the windiest. It is 
also the driest. That is our biggest desert. So as the ocean 
warms up around it, more moisture into the air, more moisture 
into the interior. But what we see now as you look more 
carefully is it is gaining in the middle, but it is losing at 
the edges; and, on balance, Antarctica and Greenland are losing 
ice more rapidly than it is being formed.
    So you can take any--back here where you started with this 
comment. Any sort of one of those short phrases you could make 
a headline out of it. And, often, the public is very confused 
because they see these fragments of information and don't 
understand how they fit together.
    Mr. Cleaver. Thank you. That is important. And I don't 
know, one of the things we have got to do is to be able to 
figure out a way to present complicated information in a--you 
know, I think the newspapers are supposed to be printed at a 
sixth-grade level. And I think something as important as this, 
we have got to figure out how to simplify the language for the 
public. Because, otherwise, they are going to get a headache 
and bail out because they--not because they are not concerned, 
but they don't get it. Now, we, some of this we learned in 
eighth grade. But my frustration is simplifying the language, 
and I don't know how to do it.
    Mr. McCarthy. Could I make a further comment?
    Mr. Cleaver. Yes, sir.
    Mr. McCarthy. Consensus seems to get a bad word at times. 
But when decisionmakers come to groups of scientists and say, 
tell us the simplest version of this story, that is where the 
consensus statement comes from.
    If you get scientists together and say, what do you want to 
talk about, we don't talk about things we agree on. We talk 
about the parts that we disagree on, the things that we don't 
understand, where all the interest in furthering the science 
lies. So if you made two rosters and say, where are the 
statements on this subject that say there is a problem? Because 
the climate is changing. We know the causes of that. If those 
trends continue, all of the sort of impacts we talk about will 
come in play.
    Who is on that ledger? All the national academies of 
sciences--in my testimony, I included a statement that came out 
last October--eighteen organizations, scientific organizations 
of the United States. Look at any of our societies--the 
American Meteorological Society, the American Geophysical 
Union, the American Ecological Society--all of their statements 
are very similar; and I have given an example here.
    So we are asked at times to try and simplify this, and this 
is the consensus or where consensus comes into play. Scientists 
don't sit around talking about what they agree on. They talk 
about what they disagree on.
    Mr. Blumenauer. Thank you all.
    The gentleman's time has expired. We are about to be 
summoned to the floor with bells and whistles for our robust 
democracy on the floor of the House. We deeply appreciate your 
coming here. I think any review of the record today, as well as 
the materials you have submitted, illustrates the purpose of 
the hearing. But you have been so patient with us.
    We want to make sure that--and apologize for trying to 
bring it to a conclusion--but we would like to give every 
member of the panel a minute, a minute and a half just for any 
summary conclusion that you may have, any takeaway. If you have 
decided that it was just cloud cover and you were wrong, any 
wrap-up thoughts?
    Mr. Hurrell. Sir, I appreciate the opportunity to make some 
concluding comments.
    I think that transparency in process, making data 
available, making model codes available is extremely important; 
and that is something that, by and large, the climate science 
community does a very good job of. I work at the National 
Center for Atmospheric Research in Boulder, Colorado, where we 
develop one of the world leading climate models in the world 
that is used to understand climate, as well as project future 
changes in climate; and that entire code and all of the data 
that go into that model are publicly available. You can go out 
to the Web site right now and download that data. And I think 
that climate science spanning the breadth of the sciences makes 
a very valiant attempt to be as transparent as possible.
    I also want to emphasize, in terms of the IPCC process, 
that it is indeed an assessment; and, as Dr. McCarthy pointed 
out, the consensus view is indeed a very powerful view. The 
IPCC report does an exhaustive job documenting not only what we 
do know but also what we don't know and where the grand 
challenges are and where the uncertainties are. There are many, 
many peer-reviewed papers that are thoroughly assessed in those 
international assessment reports.
    When we saw some of Lord Monckton's evidence today, those 
are largely based on single studies, and I could take the time, 
if you wanted, to go through those on an individual basis and 
point out some of the flaws in those studies as well. That is 
the scientific process; and, indeed, for the papers that he has 
highlighted, there are other papers in the literature that 
counter those points and raise issues.
    And very quickly, the final last word, what I did not 
address was indeed the importance of communicating; and I 
thoroughly agree that that is a very fundamental, very critical 
thing that all scientists need to be doing.
    Mr. Blumenauer. Thank you very much.
    Dr. McCarthy.
    Mr. McCarthy. Thank you. I will try and make four points 
very briefly.
    I want to emphasize a point that I made in my testimony, 
that what we are talking about here are not just changes, 
changes that we may see analogs for in the past, but very rapid 
changes, rapid rates of change, rapid rise of sea level, rapid 
changes in ocean chemistry; and that is a very, very important 
part of the message.
    Secondly, I would like to say that we should think about 
this like assessing risk. What if we are right? What if we are 
wrong? What is the worst thing we could do? And you will puzzle 
your way through that logic. Think of how we assess risk, 
whether we buy fire insurance for our houses or not. I don't 
think my house is ever going to burn down, but I would not own 
a house without fire insurance. And we look, we assess the risk 
here. We say, could we err on the right side or the wrong side? 
I think we want to err on the right side.
    Then you look at all the projections for cost; and, 
increasingly, from the report from Sir Nicholas Stern and many 
others, you see that doing the right thing to move us away from 
dependence upon fossil fuel is not inordinately expensive and 
that there are enormous benefits, many of which have never been 
cost in this ledger.
    Then just finally, if you go through these exercises, you 
see that we have a limited period in which to act if we are 
going to avoid some other things we didn't even talk about 
today, some of the high consequence, low probability, high 
consequence changes. And a lot of models show that if we do not 
act within the next decade to begin to bend these curves then 
we are entering dangerous territory.
    Finally, we all need to communicate better. Scientists are 
clumsy at this. It is not our profession. We learned how to do 
science, not how to communicate well, and we need to work on 
that.
    Mr. Monckton. The central point I should like to leave the 
panel with is that there is no hurry. If you do nothing about 
this at all for the whole of the next 23 years, the worst that 
will happen, using the U.N.'s own estimate, is a 1 Fahrenheit 
degree warming, which will be largely harmless and beneficial. 
So you have plenty of time to check the studies, just a few of 
which I have shown you today in the peer-reviewed literature 
suggesting that there is another side to this story, another 
side based not on modeling but on measurement, which 
establishes and with increasing clarity establishes that there 
is no scientific problem. Even if there were, adaptation, as 
and where and if necessary, would be orders of magnitude 
cheaper and more cost effective than trying to stop the 
emission of carbon dioxide.
    Who is going to get hurt if you start closing down coal-
fired power stations, putting up the price of gasoline and 
electricity? Who is going to get hurt? It is the working people 
of America. Is that a good thing? I don't think so and nor 
should you.
    Mr. Field. Thank you very much for the opportunity to make 
a couple of concluding remarks.
    One of the things I think really needs to be emphasized is 
that the scientific evidence on climate change is based on many 
lines of independent evidence, on thousands and thousands of 
scientific studies that are quantitatively careful. Some are 
based on models, many are based on observations, and they all 
fit together in a fabric in which the general kinds of 
conclusions that indicate that the climate is changing, that 
the changes are important are very, very real.
    It is also important to note, however, that there are 
important unknowns. Some of those have been discussed today, 
and many of the unknowns are in the direction of risks that are 
potentially higher than we have been able to accurately 
categorize. The risks of sudden sea level rise, the risks of 
carbon release from ecosystems, and the risks of dramatic 
changes in the Earth's system have all been very difficult to 
quantify and are not generally recognized in the more 
conservative kinds of assessments that typically come from the 
IPCC and other organizations.
    I also want to emphasize the point that Dr. McCarthy made 
about the importance of viewing climate science as essentially 
problem in risk management. We don't know precisely what the 
future will look like, but we have a very clear picture of the 
risk elements that are introduced by changes that people are 
causing in the earth's system, and we can have an increasingly 
clear picture of the consequences of commonsense investments in 
decreasing those impacts.
    Now, finally, I want to conclude with a very strong comment 
that Lord Monckton's conclusion that we don't need to do 
anything now is fundamentally misleading. We haven't seen 
crises that we can unambiguously attribute to climate change, 
but we have seen increasing risk to a wide range of Earth's 
systems, and we also know that the longer we delay the more 
difficult it gets to address the problem and the more expensive 
it gets. This is a problem where commonsense investments in the 
shorter term are likely to pay big dividends relative to 
waiting and hoping against hope that the situation isn't as bad 
as the science indicates.
    The Chairman [presiding]. Great. Thank you, Dr. Field very 
much.
    Dr. Graumlich.
    Ms. Graumlich. Thank you for the opportunity to make a 
final comment.
    I would like to, first off, simply agree with my colleagues 
on this panel that the scientific consensus is clear and that 
the urgency to act is very much upon us. But I am struck by 
Congressman Cleaver's comments about the degree to which public 
perception is perhaps lagging behind the perceptions of some of 
you on this particular committee and want to give my view from 
the Southwest.
    I am part of a land grant institution that has a very 
strong relationship with the ranching community in the 
Southwest. Since 2002, we have been in a deep drought; and 
there is very good scientific evidence that that is due to the 
northern migration of the westerlies that are no longer 
bringing as much precipitation to the Southwest as there was 
before. Our ranching community is not arguing about whether 
climate change is here or not. They are coming to us saying, 
what are we going to do about it? And climate is the number one 
issue in this community, and they are asking us to give them 
guidance about how to adapt, both in the short term and the 
long term. So I think that the public perception that climate 
is an issue, whether it is called climate change or whether it 
is not called climate change, is particularly keen among the 
peoples of the Southwest.
    Secondly, as a professor in a large public university, we 
share your concern about the increase in scientific literacy 
that is going to be demanded to address the complex trade-offs 
that we are coming up against, and we are very much engaged in 
that enterprise.
    Thank you.
    The Chairman. Thank you, Dr. Graumlich, very much.
    We thank each of you for your participation in this very 
important hearing. We will continue with additional hearings on 
this issue so that we can ensure that all of the science is out 
in a way that it makes it possible for the public to be able to 
make an informed decision as to whether or not there really is 
such a thing as global warming that has been caused by manmade 
activity. We think that there is no more important debate that 
we can have in the Congress or in our country, and the experts 
that we had today I think very clearly laid out the scientific 
reality and has only added to my conviction that we have to act 
and we have to act soon.
    The Waxman-Markey bill passed last June 26, 2009. The 
Senate has a bill which, with a little bit of luck, it will 
begin consideration of in the relatively near future. But time 
is of the essence.
    So with the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2590A.078
    
    [GRAPHIC] [TIFF OMITTED] T2590A.079
    
    [GRAPHIC] [TIFF OMITTED] T2590A.080
    
    [GRAPHIC] [TIFF OMITTED] T2590A.081
    
    [GRAPHIC] [TIFF OMITTED] T2590A.082
    
    [GRAPHIC] [TIFF OMITTED] T2590A.083
    
    [GRAPHIC] [TIFF OMITTED] T2590A.084
    
    [GRAPHIC] [TIFF OMITTED] T2590A.085
    
    [GRAPHIC] [TIFF OMITTED] T2590A.086
    
    [GRAPHIC] [TIFF OMITTED] T2590A.087
    
    [GRAPHIC] [TIFF OMITTED] T2590A.088
    
    [GRAPHIC] [TIFF OMITTED] T2590A.089
    
    [GRAPHIC] [TIFF OMITTED] T2590A.090
    
    [GRAPHIC] [TIFF OMITTED] T2590A.091
    
    [GRAPHIC] [TIFF OMITTED] T2590A.092
    
    [GRAPHIC] [TIFF OMITTED] T2590A.093
    
    [GRAPHIC] [TIFF OMITTED] T2590A.094
    
    [GRAPHIC] [TIFF OMITTED] T2590A.095
    
    [GRAPHIC] [TIFF OMITTED] T2590A.096
    
    [GRAPHIC] [TIFF OMITTED] T2590A.097
    
    [GRAPHIC] [TIFF OMITTED] T2590A.098
    
    [GRAPHIC] [TIFF OMITTED] T2590A.099
    
    [GRAPHIC] [TIFF OMITTED] T2590A.100
    
    [GRAPHIC] [TIFF OMITTED] T2590A.101
    
    [GRAPHIC] [TIFF OMITTED] T2590A.102
    
    [GRAPHIC] [TIFF OMITTED] T2590A.103
    
    [GRAPHIC] [TIFF OMITTED] T2590A.104
    
    [GRAPHIC] [TIFF OMITTED] T2590A.105
    
    [GRAPHIC] [TIFF OMITTED] T2590A.106
    
    [GRAPHIC] [TIFF OMITTED] T2590A.107
    
    [GRAPHIC] [TIFF OMITTED] T2590A.108
    
    [GRAPHIC] [TIFF OMITTED] T2590A.109
    
    [GRAPHIC] [TIFF OMITTED] T2590A.110
    
    [GRAPHIC] [TIFF OMITTED] T2590A.111
    
    [GRAPHIC] [TIFF OMITTED] T2590A.112
    
    [GRAPHIC] [TIFF OMITTED] T2590A.113
    
    [GRAPHIC] [TIFF OMITTED] T2590A.114
    
    [GRAPHIC] [TIFF OMITTED] T2590A.115
    
    [GRAPHIC] [TIFF OMITTED] T2590A.116
    
    [GRAPHIC] [TIFF OMITTED] T2590A.117
    
    [GRAPHIC] [TIFF OMITTED] T2590A.118
    
    [GRAPHIC] [TIFF OMITTED] T2590A.119
    
    [GRAPHIC] [TIFF OMITTED] T2590A.120
    
    [GRAPHIC] [TIFF OMITTED] T2590A.121
    
    [GRAPHIC] [TIFF OMITTED] T2590A.122
    
    [GRAPHIC] [TIFF OMITTED] T2590A.123
    
    [GRAPHIC] [TIFF OMITTED] T2590A.124
    
    [GRAPHIC] [TIFF OMITTED] T2590A.125
    
    [GRAPHIC] [TIFF OMITTED] T2590A.126
    
    [GRAPHIC] [TIFF OMITTED] T2590A.127
    
    [GRAPHIC] [TIFF OMITTED] T2590A.128
    
    [GRAPHIC] [TIFF OMITTED] T2590A.129
    
    [GRAPHIC] [TIFF OMITTED] T2590A.130
    
    [GRAPHIC] [TIFF OMITTED] T2590A.131
    
    [GRAPHIC] [TIFF OMITTED] T2590A.132
    
    [GRAPHIC] [TIFF OMITTED] T2590A.133
    
    [GRAPHIC] [TIFF OMITTED] T2590A.134
    
    [GRAPHIC] [TIFF OMITTED] T2590A.135
    
    [GRAPHIC] [TIFF OMITTED] T2590A.136
    
    [GRAPHIC] [TIFF OMITTED] T2590A.137
    
    [GRAPHIC] [TIFF OMITTED] T2590A.138
    
    [GRAPHIC] [TIFF OMITTED] T2590A.139
    
    [GRAPHIC] [TIFF OMITTED] T2590A.140
    
    [GRAPHIC] [TIFF OMITTED] T2590A.141
    
    [GRAPHIC] [TIFF OMITTED] T2590A.142
    
    [GRAPHIC] [TIFF OMITTED] T2590A.143
    
    [GRAPHIC] [TIFF OMITTED] T2590A.144
    
    [GRAPHIC] [TIFF OMITTED] T2590A.145
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
